CITY OF BATTLE CREEK
CITY ATTORNEY

November 23, 2020

Via Electronic Filing

Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
RE:

Patricia Nelson, Next Friend of N.K. a Minor, v Esteban Rivera
No. 20-245

To the Clerk of the Court:
We represent Respondent, Esteban Rivera, in the above referenced case. Petitioner
Patricia Nelson filed the Petition for Writ of Certiorari on August 26, 2020, and it was placed on
the docket August 31, 2020. Respondent filed a waiver of filing a response; however, on October
26, 2020, the Court requested a response be filed to the Petition directing a brief in opposition is
due by November 25, 2020. Pursuant to United States Supreme Court Rule 30.4, we request a
(28) day extension of time to file a brief in opposition to the Petition for Writ of Certiorari.
As counsel of record in this case from a small City Attorney’s office consisting of four
attorneys, including myself as department supervisor, our workload necessitates a request for an
extension of time in which to respond. In this election year, all nine members of the city’s
governing body were up for election, which resulted in five new commissioners having been
elected. As well, with my additional responsibilities due to the pandemic, including interpreting
and applying statewide public health orders, and with all staff, including attorneys, required to
work from home, we find ourselves in need of additional time in which to properly respond.
For these reasons, we respectfully request a twenty-eight (28) day extension of time, until
December 23, 2020 under Rule 30.4, to file a brief in opposition to the Petition for Writ of
Certiorari. On today’s date, Amy J. DeRouin, counsel for Petitioner, was notified of
Respondents’ request for a twenty-eight day extension of time to file an opposition to the
Petition for Writ of Certiorari and she concurred with the request. Thank you for your attention.
Respectfully submitted,
Jill Humphreys Steele
Jill Humphreys Steele,
City Attorney

10 N. Division St. Suite 111
P.O. Box 1717
Battle Creek
Michigan
49016-1717
10 N. Division St. Suite 207
P.O. Box 1717
Battle Creek
Michigan
49016-1717
Phone (269) 966-3348
Fax
(269)
966-3555
www.battlecreekmi.gov
Phone (269) 966-3385 Fax (269) 966-3612
www.battlecreekmi.gov

CERTIFICATE OF SERVICE
I, Jill Humphreys Steele, of lawful age, being duly sworn, upon my oath state that I
did, on the 23rd day of November, 2020, electronically file from Battle Creek, Michigan,
Respondent’s motion for an extension of time under Rule 30.4. Due to the ongoing COVID-19
pandemic, the motion for an extension of time under Rule 30.4 is being filed only through the
Court’s electronic filing system, per the direction of the Court Clerk. All parties required to be
served have agreed to use electronic email service exclusively, thus a copy has been served
electronically as follows::
Amy J. DeRouin
Christopher Trainor & Associates
christopher.trainor@cjtrainor.com
amy.derouin.@cjtrainor.com
Executed this 23rd day of November, 2020, in Battle Creek, Michigan.
s/ Jill Humphreys Steele
Jill Humphreys Steele

